WILLIAM WILBERFORCE TRAFFICKING VICTIMS

PROTECTION REAUTHORIZATION ACT OF 2008



   U.S. Agency for International Development

          Office of Inspector General

              Report to Congress





                January 14, 201 1

Introduction

We prepared this report pursuant to the reporting requirements set forth in section 232 of
the William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,
Public Law 110-457 (December 23, 2008). That legislation requires the Office of
Inspector General to provide the Committee on Foreign Affairs with a summary of our
investigative and audit activities over the previous year that involved trafficking in
persons.

Summary of OIG Activities

Under the act, OIG is required to examine a sample of contracts containing a heightened
risk that a contractor may engage in acts related to trafficking in persons. We conducted
three related reviews over the past year.

First, we examined two U.S. Agency for International Development (USAID) contracts
in Iraq that we deemed to be at heightened risk because they employed low-wage, low­
skilled third-country nationals. Our review of these two contracts, I which were valued at
a total of $8 million, found no indication of trafficking in persons. Third country
nationals employed under the contracts enjoyed more freedom of movement in their free
time than their U.S. counterparts, and none of the contract employees complained of
threats, abuse, or coercion. According to these employees, their pay under the contracts
was equal to or greater than what they had received from other employers in Iraq. Our
review also found that the USAID mission had controls in place to manage the risk of
trafficking in persons on its compound, where the contractors operated. These controls
included ensuring that the required Federal Acquisition Regulation clause related to
trafficking in persons was part of the contracts, conducting meetings with contractor
management, site visits of employee living quarters, and having direct communication
with the contracted employees.

Nevertheless, one of the two USAID/Iraq contractors did not have employment
agreements with its low-skilled, low-wage staff, making them susceptible to abuse.
Because the absence of such an agreement is inconsistent with good business practices,
we recommended that the mission require the contractor to execute employment
agreements that cover applicable wages, benefits, and repatriation costs with all of their
low-wage, low-skill employees.

We also examined Millennium Challenge Corporation (MCC) practices to detennine
what measures MCC had taken to prevent trafficking-in-persons activity. In March 2010,
we released a survey of MCC's anti-trafficking policies and procedures. 2 The survey
noted that MCC had instituted processes to identify, address, and guard against forced
labor, child labor, and other fonns of trafficking and found that MCC had established

I USAIDIOIG, Review of USAJD/lraq 's Contractors' Compliance with the Trafficking Victims Protection

Reauthorization Act of2008, Report No. E-267-11-002-S, December 12,2010.

2 USAID/OIG, Survey ofthe Millennium Challenge Corporation's Policies and Procedures to Address      u.s.

Government Anti-Trafficking Policy, Report M-000-10-00 I-S, March 17, 2010.



                                                                                                 1
compact tenns and contract clauses that address trafficking in persons and would allow
the arrangements to be tenninated if trafficking in persons occurred. 3

However, the report also noted that MCC did not have fonnal policy and written
procedures to define how trafficking was to be addressed throughout the compact
development process and over the life of the compact. The absence of fonnal policy and
procedures in this regard was of particular concern as it related to the U.S. Department of
State's rating of countries' compliance with Trafficking Victims Protection Act of 2000
(P.L. 106-386) minimum standards. Pursuant to the Wilberforce Trafficking Victims
Protection Reauthorization Act, countries given the lowest rating (Tier 3) may be subject
to the withholding of U.S. Government nonhumanitarian, non-trade-related foreign
assistance. In addition, countries placed on the Special Watch List (Tier 2 Watch List)
for more than 2 consecutive years are to be given Tier 3 status unless the President
waives this requirement. At the time of the survey, MCC had no policies or procedures
to address the possibility that an MCC compact-eligible country, or a current MCC
compact or threshold country,4 would be designated by the Department of State as having
Tier 3 or Tier 2 Watch List status for 2 consecutive years.

In response to our survey work, MCC took a number of steps to establish fonnal anti­
trafficking policies and procedures. In February 2010, MCC issued an internal policy on
trafficking-in-persons, and in March 2010, it posted a policy that addressed its efforts to
combat trafficking in persons on its Web site. MCC officials reported that they were in
the process of developing operating procedures to provide guidance on how to assess the
trafficking-in-persons risks of specific projects proposed to MCC by the country during
compact development process. In addition, MCC communicated with representatives of
four Tier 2 Watch List countries with which it works to emphasize the importance of
policy and perfonnance addressing trafficking-in-persons issues, as well as to remind
them of the risk of automatic downgrade to Tier 3 in 2011. MCC officials indicated that
they planned to send similar letters to representatives of three other partner countries with
Tier 2 Watch List status early in 2011.

In January 2011, we issued another report on MCC anti-trafficking measures. s We
examined a sample of MCC infrastructure contracts in Burkina Faso, Lesotho, Tanzania,
and Vanuatu because we considered them to be at heightened risk for trafficking. OIG
visits to selected infrastructure project sites in these countries did not reveal any instances
of trafficking in persons, and we found that MCC generally included contract provisions
intended to prevent trafficking in persons in the infrastructure contracts. Valued at a total
of $251.7 million, these contracts contained a range of different types of trafficking-in­
persons-related provisions. Some contracts required the contractor to develop a
trafficking-in-persons riskmanagement plan and describe steps taken to minimize related

3 MCC enters into 5-year compacts with foreign governments that pass MCC's eligibility criteria. These
compacts are associated with large grant awards.
4 MCC awards smaller grants to countries that come close to passing MCC compact eligibility criteria
through its threshold program. MCC threshold programs are intended to improve the policy environment
in recipient countries.
5 USAID/OIG, Review ofthe Millennium Challenge Corporation's Approach to Addressing and Deterring
Trafficking in Persons, January 2011.


                                                                                                    2
risks, while others contained clauses that prohibited child labor, sex trafficking, and
prostitution. Nevertheless, our review of MCC procurement guidance revealed that
guidance on small works procurements did not contain all appropriate anti-trafficking
provisions. Consequently, one small works contract we reviewed in Lesotho included a
subclause prohibiting the use of child labor but did not address other forms of trafficking­
in-persons activity. In response to this finding and our associated recommendation, MCC
officials have advised that it plans to make major revisions to its guidance on
infrastructure procurements, designlbuild, and consulting services bidding documents to
strengthen trafficking-in-persons requirements for future MCC award recipients.

We did not refer any cases for prosecution for trafficking-in-persons violations in 2010,
nor did USAID or MCC terminate any grants, contracts, or cooperative agreements
during the year as a result of our trafficking-in-persons assessments.




                                                                                          3
u.s. Agency for International Development

       Office of Inspector General

       1300 Pennsylvania Avenue NW

          Washington, DC 20523

            Tel.: 202-712-1150

            Fax: 202-216-3047

           www.usaid.gov/oig

